      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                        Washington, D.C. 20201




May 26, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Head Start Health and Safety Standards at Longmont Children’s
               Council (A-07-09-02763)


Attached, for your information, is an advance copy of our final report on Head Start health and
safety standards at Longmont Children’s Council (LCC). We will issue this report to LCC
within 5 business days. The Administration for Children and Families, Office of Head Start,
requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov or
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591 or
through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-09-02763.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Office of Inspector General

         Office of Audit Services, Region VII
                                                                             601 East 12th Street, Room 0429
                                                                             Kansas City, MO 64106




May 27, 2010

Report Number: A-07-09-02763

Ms. Amy Ogilvie
Executive Director
Longmont Children’s Council
82 21st Avenue, Suite B
Longmont, CO 80501

Dear Ms. Ogilvie:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Head Start Health and Safety Standards at
Longmont Children’s Council. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact James Korn, Audit Manager, at (303) 844-7153 or through email at
James.Korn@oig.hhs.gov. Please refer to report number A-07-09-02763 in all correspondence.

                                                Sincerely,



                                                /Patrick J. Cogley/
                                                Regional Inspector General
                                                  for Audit Services


Enclosure
Page 2 – Ms. Amy Ogilvie


Direct Reply to HHS Action Official:

Mr. Ross Weaver
Regional Program Manager, Region VIII
Administration for Children and Families, Office of Head Start
1961 Stout Street, Room 926
Denver, CO 80294
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF HEAD START HEALTH AND
 SAFETY STANDARDS AT LONGMONT
      CHILDREN’S COUNCIL




                       Daniel R. Levinson
                        Inspector General

                           May 2010
                         A-07-09-02763
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

Longmont Children’s Council (LCC), a private, nonprofit corporation, operates four Head Start
facilities in Longmont, Colorado. LCC provides the following services to enrolled children:
education; health and nutrition, family, and mental health services; parental involvement; and
transportation.

For the 2009–2010 grant year (September 1, 2009, through August 31, 2010), OHS awarded
$1,218,428 in Federal Head Start funds to LCC to provide services to 166 children at the 4
facilities. On June 30, 2009, LCC also received $83,482 in Recovery Act funding.

OBJECTIVE

Our objective was to determine whether LCC complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

LCC complied with the majority of Federal and State requirements on ensuring the health and
safety of children in its care. However, LCC did not comply with all Federal and State health
and safety requirements. Specifically, as of October 2009:

   •   Employee files showed that LCC had obtained background checks on all 52 of its
       employees. However, LCC hired 10 of these employees before their criminal
       background checks were completed.

   •   LCC’s four facilities did not meet all Federal Head Start and State health and safety
       regulations on protecting children from unsafe conditions.

These deficiencies occurred because LCC did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety regulations. LCC’s failure to follow these regulations potentially
jeopardized the health and safety of children in its care.




                                                i
RECOMMENDATIONS

We recommend that LCC develop and consistently implement procedures to ensure that:

   •   employees are hired only after passing criminal background checks and

   •   all unsafe conditions identified in this report are addressed in a timely manner.

AUDITEE COMMENTS

In written comments on our draft report, LCC concurred with both of our recommendations and
with our finding regarding unsafe conditions. However, LCC did not concur with our finding
that LCC hired 10 employees before their criminal background checks were completed.
Specifically, LCC cited conflicting Federal and State regulations and said that it hired the 10
individuals after having made “a good faith effort to obtain direction from the Regional Head
Start office.” LCC also stated that at the time of our audit, it had been in compliance with
Federal requirements for 10 months.

LCC’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in LCC’s comments caused us to change our finding. During our audit, we reviewed all
current employees’ files to determine whether they were hired in accordance with the Federal
requirements applicable on the dates they were hired. LCC provided an explanation of why it
did not follow these requirements; however, LCC did not provide evidence that it had hired the
10 employees in accordance with Federal criminal background check requirements.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Federal Head Start Program ...........................................................................1
              Federal Regulations for Head Start Grantees.................................................1
              State Regulations for Head Start Grantees.....................................................1
              Longmont Children’s Council .......................................................................2
              Office of Inspector General Audits ................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope .............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          PREEMPLOYMENT CHECKS................................................................................3

          FACILITY SAFETY .................................................................................................4
               Federal and State Regulations........................................................................4
               Grantee’s Compliance With Facility Safety Regulations ..............................4

          INADEQUATE POLICIES AND PROCEDURES .................................................6

          RECOMMENDATIONS ..........................................................................................6

          AUDITEE COMMENTS...........................................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................7

APPENDIXES

          A: LACK OF COMPLIANCE WITH HEALTH AND SAFETY REGULATIONS

          B: AUDITEE COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal Regulations for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing regulations. Alternatively, if
State and local licensing standards are less stringent than the Head Start regulations or if no State
licensing standards are applicable, grantees must ensure that their facilities comply with the Head
Start Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

State Regulations for Head Start Grantees

In Colorado, the Department of Human Services, Division of Childcare (State agency), is the
licensing agency for childcare programs. Standards for licensure of childcare programs are
found in the Code of Colorado Regulations (CCR), 12 CCR 2509-8. The health and sanitation of
licensed childcare facilities are regulated by the Colorado Department of Public Health and
Environment, as specified in 6 CCR 1010-7. For the period of our review, State officials said
that under Colorado Revised Statutes 26-6-103(b), Head Start facilities were exempt from State
licensing requirements. However, a Head Start facility that is exempt from State licensing
requirements can receive a license from the State agency if the grantee applies for that license
and meets the requirements. Longmont Children’s Council (LCC), the Head Start grantee that is
the focus of this review, operates four childcare facilities, one of which was licensed.



                                                 1
Longmont Children’s Council

LCC, a private, nonprofit corporation, operates four Head Start facilities for children aged 3 to 5
years in Longmont, Colorado. LCC provides the following services to enrolled children:
education; health and nutrition, family, and mental health services; parental involvement; and
transportation.

For the 2009–2010 grant year (September 1, 2009, through August 31, 2010), OHS awarded
$1,218,428 in Federal Head Start funds to LCC to provide services to 166 children at the 4
facilities. On June 30, 2009, LCC also received $83,482 in Recovery Act funding.

Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether LCC complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

Scope

Our review covered LCC’s employee records and facilities as of October 2009. To gain an
understanding of LCC’s operations, we conducted a limited review of LCC’s internal controls as
they related to our audit objective.

We performed our fieldwork on October 21 and 22, 2009, at LCC’s administrative office and at
its four childcare facilities in Longmont, Colorado.

Methodology

To accomplish our objective, we:

   •    selected LCC based on prior risk analyses and discussions with ACF officials;

   •    reviewed Federal and State laws, regulations, and policies related to Federal grant awards
        and the Head Start program;

   •    interviewed LCC officials;

   •    reviewed LCC’s policies and procedures;


                                                 2
      •    reviewed LCC’s current Head Start grant award documents;

      •    reviewed LCC’s files on all 52 current Head Start employees; 1

      •    reviewed LCC’s licenses and documentation of fire inspections;

      •    visited LCC’s four childcare facilities; and

      •    discussed our preliminary findings with LCC officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

LCC complied with the majority of Federal and State requirements on ensuring the health and
safety of children in its care. However, LCC did not comply with all Federal and State health
and safety requirements. Specifically, as of October 2009:

      •    Employee files showed that LCC had obtained background checks on all 52 of its
           employees. However, LCC hired 10 of these employees before their criminal
           background checks were completed.

      •    LCC’s four facilities did not meet all Federal Head Start and State health and safety
           regulations on protecting children from unsafe conditions.

These deficiencies occurred because LCC did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety regulations. LCC’s failure to comply with these regulations potentially
jeopardized the health and safety of children in its care.

PREEMPLOYMENT CHECKS

Pursuant to § 648A(g) of the Head Start Act (42 U.S.C. § 9843a(g)), a Head Start grantee may
not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State, tribal, or
Federal criminal record check covering all jurisdictions where the grantee provides Head Start
services to children; (2) a State, tribal, or Federal criminal record check as required by the law of
the jurisdiction where the grantee provides Head Start services; or (3) a criminal record check as
otherwise required by Federal law.



1
    The 52 current employees were partially funded by the Head Start grant award.

                                                          3
LCC hired 10 employees (a teacher, a teacher’s assistant, 3 classroom program aides, 2 cooks,
2 bus drivers, and a bus program aide) before their criminal background checks were completed.
In January 2009, LCC modified its procedures to mandate that it obtain the results of a
background check before hiring an applicant.

By not ensuring that all employees had cleared a criminal record check, LCC potentially
jeopardized the safety of children in its care.

FACILITY SAFETY

Federal and State Regulations

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, and safety of all Head Start facilities. The regulations (45 CFR
§ 1304.53(a)) require that:

   •   electrical outlets accessible to children prevent shock through the use of child-resistant
       covers, child-protection outlets, or safety plugs;

   •   windows and glass doors be constructed, adapted, or adjusted to prevent injury to
       children;

   •   garbage and trash be stored in a safe and sanitary manner; and

   •   the selection, layout, and maintenance of playground equipment and surfaces minimize
       the possibility of injury to children.

Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or stringent than the Head Start regulations or if no State or local licensing
standards are applicable (as in the case of nonlicensed facilities), grantees must ensure that their
facilities comply with the Head Start Program Performance Standards related to health and safety
found in 45 CFR § 1304.53(a).

State regulations (12 CCR 2509-8, Rule § 7.702.91.F) state that “[n]othing flammable or
combustible can be stored within three feet of a furnace or hot water heater.”

Grantee’s Compliance With Facility Safety Regulations

LCC’s childcare facilities did not meet all Federal Head Start and State health and safety
regulations on protecting children from unsafe materials and equipment. We noted deficiencies
at LCC’s four facilities, and we discussed the deficiencies with LCC officials during our visits.




                                                 4
United Methodist (not State licensed, visited October 21, 2009)

   •   A user manual, which is flammable material, was lying on top of the water heater. The
       water heater was in an area that was not used by the Head Start program. However, LCC
       staff had access to the area.

   •   A rail of the playground fence was separated from the fencepost.

   •   A classroom trash container was uncovered.

   •   The walls of three classrooms had chipped paint that was accessible to children.

   •   In one classroom, a screw protruded from a bookcase at child level (Appendix A,
       Photograph 1).

Meeker (State licensed, visited October 21, 2009)

   •   Flammable materials were stored within 3 feet of the water heater.

   •   In one classroom, a power strip at the children’s computer workstation lacked protective
       safety plugs.

   •   Electrical outlets on the playground lacked protective safety plugs.

   •   The walls of a classroom had chipped paint that was accessible to children.

   •   A plastic bag, a suffocation hazard, was accessible to children under the sink in a
       classroom.

Powell (not State licensed, visited October 22, 2009)

   •   An electrical outlet in a classroom lacked a protective safety plug.

   •   A window shade cord in a classroom was not secured. The teacher said that the window
       shades were never opened.

   •   A classroom trash container was uncovered.

   •   The walls of a classroom had chipped paint that was accessible to children.

   •   A playground wall had chipped paint that was accessible to children (Appendix A,
       Photograph 2).




                                                5
Casa de la Esperanza (not State licensed, visited October 22, 2009)

   •   Electrical outlets on an extension cord in a classroom and on the wall of the boys’
       bathroom lacked protective safety plugs.

   •   The threaded end of a bolt protruded from a piece of playground equipment at child level
       and could injure a child (Appendix A, Photograph 3).

   •   A playground slide was partly detached from its base, thereby endangering children.

   •   The top rail of the playground fence was separated from the fencepost in two areas
       (Appendix A, Photograph 4).

   •   The playground equipment had paint peeling in several places.

The Casa de la Esperanza facility is located in a housing complex administered by the Longmont
Housing Authority. An LCC official stated that the housing authority is responsible for the
maintenance and repair of the playground. The official also said that children who reside at the
complex frequently damage the playground and the surrounding fence and that the housing
authority has been slow to respond to LCC’s requests for repairs.

INADEQUATE POLICIES AND PROCEDURES

These deficiencies occurred because LCC did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety regulations. LCC’s failure to comply with these regulations potentially
jeopardized the health and safety of children in its care.

RECOMMENDATIONS

We recommend that LCC develop and consistently implement procedures to ensure that:

   •   employees are hired only after passing criminal background checks and

   •   all unsafe conditions identified in this report are addressed in a timely manner.

AUDITEE COMMENTS

In written comments on our draft report, LCC concurred with both of our recommendations and
with our finding regarding unsafe conditions. LCC stated that it addressed all of the unsafe
conditions identified in our report in October and November 2009 and that “[n]ew procedures for
regular safety inspections of facilities went into effect on November 13, 2009.”

LCC did not concur with our finding that LCC hired 10 employees before their criminal
background checks were completed. Specifically, LCC said that it hired the 10 employees after
having made “a good faith effort to obtain direction from the Regional Head Start office
regarding the completion of background checks due to conflicting regulations between the state

                                                6
of Colorado and Head Start.” LCC added that in January 2009, “having received no direction
from the Office of Head Start, we implemented a policy that we hoped would meet” both Federal
and State requirements. LCC also stated that at the time of our audit, it had been in compliance
with Federal requirements for 10 months.

LCC also provided corrected information on the amount of Federal Head Start funding it
received during the 2009–2010 grant year.

LCC’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We revised the amount of LCC’s grant year 2009–2010 Federal Head Start funding in our
“Background” section based on the information provided by LCC. However, nothing in LCC’s
comments caused us to change our finding on criminal background checks. During our audit, we
reviewed all current employees’ files to determine whether they were hired in accordance with
the Federal requirements applicable on the dates they were hired. LCC provided an explanation
of why it did not follow these requirements; however, LCC did not provide evidence that it had
hired the 10 employees in accordance with Federal criminal background check requirements.




                                               7
APPENDIXES
                                                                                        Page 1 of 2


APPENDIX A: LACK OF COMPLIANCE WITH HEALTH AND SAFETY
                     REGULATIONS




 Photograph 1 – Taken in a classroom at the United Methodist facility on 10/21/2009
 showing a screw protruding from a bookcase at child level.




 Photograph 2 – Taken at the Powell facility on 10/22/2009 showing chipped paint on a
 playground wall.
                                                                                         Page 2 of 2




Photograph 3 – Taken at the Casa de la Esperanza facility on 10/22/2009 showing the
threaded end of a bolt protruding from a piece of playground equipment at child level.




Photograph 4 – Taken at the Casa de la Esperanza facility playground on 10/22/2009
showing the top rail of the fence separated from the fencepost.
                                                                                                                Pagelof8



                          APPENDIX B: AUDITEE COMMENTS




                                         Response to draft report titled
               Review of Head Start Health and Safety Standards al Longmont Children's Council
                                         Report number A-07-09-02763


April 14, 2010


Correction to Report
On page i of the Executive Summary and page 2 of the report, it is indicated that Longmont Children's
Council received $2,066,573 in Federal Head Start funds during the 2009-2010 grant year {September 1,
2009, through August 31, 2010) to provide services to 166 children at the 4 fa cilities. And that on June
30, 2009, LCC also received 583,482 in Recovery Act funding.


According to our records, we received a total of $1,218,428 irl Federal Head Start fundirlg during the
2009-2010 grant year {September I, 2009, through August 31, 2010) to provide services to 166 childrerl
at the 4 facilities. LCC. on June 30, 2009, also received $83,482 in Recovery Act fUrldirlg. Therefore, we
do not concur with this portion of the report.


Firldings
On page i of the Executive Summary and page 3 of the report, 2 findings are listed. Below, please firld
our comments regardirlg those findings.


        Employee files showed that LCe had obtained background checks on all 52 of its employees.
        However, LCe hired 10 ofthese employees before their criminal backgrOUrld checks were
        completed.
               We do not concur w ith t"is firlding. W"ile it is correct t"at 10 employees had criminal
                background c" ecks completed after "ire, we had made a good faith effort to obtain
               direction from the Regional Head Start office regarding the comp letion of background
               checks due to conflicting regu lations between the state of Colorado and Head Start. While
               awaiting direction from the Office of Head Start, 10 employees were hired under the old
               standards regarding background checks. In January 2009, having received no direction from
               the Office of Head Start, we implemented a policy that we hoped would meet both the
                requirements of Head Start and the State of Colorado. At the time of the Office of Inspector
                General's inspection of our records, we had been in compliance with Head Start standards
               for 10 months and continue to be in compliance to date. It is impossible for us to correct
               the background checks of the 10 employees identified i n this report. Therefore, we fe el that
               we were in compliance with regulations at the time of the inspec tion and do not concur
               with the findirlg t"at we were deficient in this area.


    •       Lees four facilities did not meet ali Federal Head Start and State health and safety regulation5
        on protecting children from un5afe conditions.
               We do concur wi th thi$ finding. New procedures for regular safety inspections of facilities
               went into effect on November 13, 2009. See attached Safety Policies. All items sited were
                                                                                                           Page2of8




              immediately fixed. Safety po licies address the ongoing monitoring of facilities to ensure
              that these issues do not recur.

Recommendations
We concur w ith each of the recommendations made in the report. The first recommendation,
" employees are hired only after passing criminal background checks" was already in place and being
implemented at the time of inspection. All unsafe conditions identified in the report were addressed in
October and November 2009.


Thank you,




Amy Ogilvie
Executive Director
                                                                                                       Page30fS




           TITLE: 	                   Safety Policies

           POLICY NUMBER:             7.11

           EFFECTIVE DATE:             November 13, 2009


           OBJECTIVE

           To ensure that each center of Wild Plum Center maintains the highest level of safety in
           our environment; each employee will practice the following procedures.

           POLICY

           Wild Plum Center is dedicated to the protection of its emp loyees from on-the-job
           injuries. Everyone associated with Wild Plum Center, including management,
           supervision and employees, has the responsibility to work safely on the job. This policy
           is designed to ensure that each employee and supervisor is made aware of the safety
           provisions that are implemented by Wild Plum Center.

           All employees are required to work in a safe manner and to report hazardous activities
           of other employees to management officials of Wild Plum Center. Constant awareness
           of, compliance with, and respect for this policy are conditions of employment.
           Management and supervision reserve the right to issue disciplinary warnings to
           employees, up to and including termination, for failure to follow the guidelines of this
           policy.

           It is the intent of the management of Wild Plum Center to create a work environment
           where the safety and health of employees, the public and the company are paramount.
           Accident and injury prevention will take precedence over expediency or shortcuts. We,
           in conjunction with the employees, will make every attempt possible to reduce the
           possibility of accident or injury from occurring .

           The employees of Wild Plum Center have been and will always be our greatest
           resource. In recognition of this, this policy is being implemented and enforced .
           Emergency First Aid Training

           ~ 	 It is Wild Plum Centers policy to provide training to all staff to complete the Red
               Cross First AidfCPR Certification at no cost to the employee. All staff working
               directly with children are required to take the training within 30 days of employment
               and then to renew as required. Staff who do not work directly with children may also
               take the training at no cost to the employee .


           Emergency Procedures




Office of Inspector General note: Longmont Children' s Council legally added the name " Wild Plum
Center for Young Children and Families" as a "doing business as" name in April 2009. Because
"Longmont Children' s Council" is the name used on the grant award documents, we have retained that
name for the purposes of this report.
                                                                                              Page40f8




» 	Evacuation charts must be posted in every classroom at all sites.
» 	 Centers will cond uct fire   evacuation drillS at least once every month. A log must be
    kept which indicates the date, number of children and time necessary to evacuate
    the building. Drills for tornadoes will be conducted on an annual basis.

Posting of Emergency Telephone Numbers

»   Emergency numbers must be posted by every telephone in the center. This posting
    should include: 91 1, Poison Control, Non-emergency police and fire departments,
    Head Start office at Powell, Head Start Office at church, Casa classroom, Meeker
    classroom.

Playground Safety

»   Supervision with the same staff/child ratios as required in the classroom must be
    maintained at all times while on the playground.

»   Appropriate length of playground time is no longer than 45 minutes only as weather
    permits. In hot climates during the summer and cold climates during the winter,
    outside time must be limrted to protect children's health. Classrooms should rotate
    use of Ihe playground. NEVER allow more than one age group to use the same
    equipment at the same time. Staff should plan and implement daily outdoor
    activities.

» 	 Playground   safety checks will be preformed on a daily basis to ensure that
    playgrounds are free of debris and that all surfaces are in good repair and safe
    condition.    Th is includes picking up trash, sweeping sidewalks, inspecting
    playground equipment for damage or dangerous conditions, and inspecting buildings
    and fences surrounding playgrounds for hazardous conditions such as chipping
    paint, protrusions and nonfunctional gates. Documentation of checks shall be
    retained at each facility.


Field Trip Safety

» 	It is Wild Plum Cente r's policy that a minimum of two adults be present on any field
    trip during wh ich children leave the center grounds. Appropriate staff/child ratios
    must be ma intained or exceeded at all times. Parent/guardian volunteers are
    encouraged to exceed normal ratios whenever possible. Restroom supervision, for
    both boys and girls, is mandatory on field trips. CHILDREN ARE NEVER
    UNATTENDED. It is strongly suggested that restroom facilities be vacant before
    ente ring with children . Staff should allow boys and girls to use restroom facilities
    separately, keep children under supervision al all times and maintain appropriate
    staff/child ratios .




                                                                                         2
                                                                                                PageSofS




Injury

Ji> 	 It is Wild Plum Center's policy to plan carefully and supervise accurately at all times
   to prevent injuries. First aid should be applied immediately and g11 called if the
   injury is of a serious nature. If a child has fallen from playground equipment , he/she
   must not be moved without the assistance of trained medical personnel.

Ji> 	 All injuries must be documented on Minor Injury/Accident Report form. Staff should
   notify parents/guardians concerning an injured child as soon as possible. Any head
   injury requires immediate notification to the parent/guardian and we strongly
   recommend a doctor's exam and signed release.

1» 	 The program Nurse andlor Executive Director should be notified immediately of any
     injury requiring more than routine attention. They should also be notified in the case
     of all head injuries.


Blood Contaminated FluidsfTissues

Ji> 	 Every precaution should be taken when employees treat conditions or injuries that
   involve gross amounts of blood. The National Center for Disease Control
   recommends Universal Precautions for these instances.

   Universal Precautions include the following:

   1)     Employees must wear latex gloves.

   2)     Cleaning materials used for bodily secretions must be tightly enclosed in a
          plastic bag and immediately discarded.

   3)     On the playground: a bag containing latex gloves, wipes, sterile gauze and
          paper towels must be within easy reach of all employees who are in direct
          contact with children. Teachers will keep the Universal Precaution Kit in within
          very close proximity to themselves and children. If the child's injury contains
          blood but is minor, the child should be taken into the center for treatment. If
          the injury is severe and contains blood , the child should be treated
          immediately on the playground without being moved until medical attention
          arrives. It is recommended that gloves be placed on both hands when dealing
          with injuries where blood is present. Staff will follow Red Cross First Aid and
          CPR training in administering first aid to ch ildren on the playground. One
          Universa l Precaution Kit must be available per classroom while children are
          on the playground.

   4)     On field trips: a bag containing latex gloves , sterile gauze and paper towels
          must be .within easy reach of all employees who are in direct contact with
          children. If more than 50 ft. away from the bus on a field trip, staff must carry


                                                                                           3
                                                                                                      Page60fS




                 the Universal Precaution Kit with them to be in close proximity to children. If
                 the child's injury is minor and contains blood , it is recommended that both
                 gloves be worn to treat and cover the wound. If the injury is severe and
                 contains blood, the child should be treated immediately on the field trip
                 without being moved until medica l attention arrives. The Universal Precaution
                 Kit must travel with staff and children when field trip activities will occur more
                 than 50 ft. away from the bus. Staff will follow Red Cross First Aid and CPR
                 training in adm inistering first aid to children on field trips. One Universal
                 Precaution Kit must be available for each staff member supervising children
                 on a field trip.

       5) 	      Plastic bags containing blood contaminated bodily fluids must be tightly
                 closed and discarded away from access of children and animals.

j> 	   Wild Plum Center recommends following NCDC guidelines from Caring for Our
       Children, National Health and Safety Performance Standards: Guidelines for Out-of­
       Home Child Care Programs , pp. 75-76, for cleaning and disposing of bodily fluids or
       tissues. See Attachment A for guidelines.

SuffocationlChoking Hazards

       Balloons
       j> 	 There ~ a method to use balloons decoratively in our centers without
            endangering the children. According to the book, Caring for Our Children,
            National Health and Safety Performance Standards: Guidelines for Out-at-Home
            Child Care Programs , criteria FA213 and FA214 read as follows:

       FA213. Coins , rubber balloons, safety pins, marbles and similar small objects shall
       not be available to children under four years old .

       FA214. Infants, toddlers and preschool children shall not be permitted to inflate
       balloons, nor shall they have access to un-inflated or under-inflated balloons.

       j> 	   Balloons may only be used for decorative purposes in the common areas of the
              center and to attract attention on signage outside the center. The following
              procedures must be followed when using balloons for open houses and special
              events .

       1. 	 Balloons must be handled and inflated by adults only.
       2. 	 Decorative groups of balloons should be constructed , created and placed by
            adults or school-age children, ages six and over, remembering that school-age
            children must be supervised by an adult while this occurs.
       3. 	When the event is over, each balloon or balloon grouping must be taken down ,
            deflated and disposed of outside the center by adults only.




                                                                                                  4
                                                                                               Page7of8




   4. 	 Under no circumstances will balloons be used in classrooms or on the
        playground, due to the fact that several deaths have been reported by
        asphyxiation from balloon remnants.
   Tetherbal ls 

   }> Tetherballs are not permitted on Wild Plum Center's playgrounds. 





   Window Blind Cords
   }> 	 In classrooms where shades and blinds are present, the cords must be tied up
        and knotted so that they do not hang down , where they could pose a potential
        strangulation hazard. When blinds are open, cords will be securely attached at
        the top of the window blind.

Facility Safety Checks
   }> On a daily basis, classroom staff will inspect classroom areas to ensure the
        safety of children. These inspections will include assuring that all exposed outlet
        have safety covers , all items that pose a potential suffocation risk (plastic bags)
        are inaccessible to children, and all hazardous materials are locked, sealed and
        out of the reach of children. Documentation of daily inspections will be retained
        in the classroom.
   }> On a monthly basis, facilities staff will conduct an inspection of facilities for
        compliance with the above items and to ensure that other risks are not present.
        This inspection will include checking painted surfaces for chipping or peeling,
        equipment in disrepair, and the effective functioning of safety equipment (exit
        signs, smoke and carbon monoxide detectors, phones, etc). Documentation of
        inspection wil l be retained by facilities staff.
   }> Annual inspections of fire systems will occur. Documentation of inspection will
        be retained by facilities staff.

Safety Committee
   }> 	 Wild Plum Center will convene a Safety Committee comprised of staff members.
        Staff members will represent all centers and program options. The committee is
        responsible for reviewing safety procedures, addressing safety concern trends
        within the organization and recommending safety tr~ining topics for staff.

Home Visits
  }> When conducting home visits, staff safety is of the highest concern.        Prior to
     going on a home visit, staff should inform at least one co-worker of the location of
     the home visit. Staff should use their own judgment when scheduling home visits
     to ensure that they are safe in the home and neighborhood of the family. If,
     under any circumstances, a staff member is not comfortable in performing a
     home visit, alternate arrangements should be made to conduct the home visit in
     one of our facilities or for more than one staff member to attend the visit

It is a condition of employment for employees to abide by the rules and procedures
described in this pOlicy. Information and instructions communicated to employees



                                                                                          5
                                                                                               PageSofS




through safety meetings and other forms of training must be followed at all times on the
job. Employees violating the following rules will be subject to the appropriate disciplinary
action .

   1. 	 Dangerous conditions or practices observed at any time will be reported as soon
        as possible 10 a supervisor or someone with management authority.

   2. 	 Employees must understand that they will be subject to disciplinary action for
        committing an unsafe act or allowing an unsafe condition to exist without taking
        corrective action.

   3. 	Employees must immediately report all injuries, no matter how slight, to the
       Safety Coordinator or to the emp loyee's supervisor.

   4. 	Consumption or being under the influence of alcohol or a controlled substance in
       the workplace will not be permitted.

   5. 	When operating any equ ipment, employees shall adhere to all safety rules to
       ensure not only their safely, but also the public's safety.

   6. 	 Employees must wear all protective equipment as required by supervision and
        their safety training (i.e ., seat belts) .

   7. 	 Electrical tools must be grounded by double insulated type casings or with three­
        prong plugs and three wire cords.

   8. 	 No frayed extension cords are to be brought onto any job site. All cords shall be
        proper1y placed to ensure that they do not present a trip hazard . Extension cords
        in the classroom must be fastened to a wall or completely hidden from a ch ild's
        access. Avoid whenever possible.

   g. 	 Horseplay is nol allowed on the job. Horseplay would be described as any
        activity, not work-related , that may bring harm to the employee or others on the
       job site.




                                                                                           6
